Nos. 19-840; 19-1019
_________________
IN THE
SUPREME COURT OF THE UNITED STATES
_________________
CALIFORNIA, ET. AL.
Petitioners,
V.

TEXAS, ET AL.
Respondents.
_________________
TEXAS, ET AL.
Cross-Petitioners,
V.

CALIFORNIA, ET AL.
Cross-Respondents.
________
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT
_________________
MOTION OF RESPONDENT UNITED STATES HOUSE OF REPRESENTATIVES
FOR ENLARGEMENT OF ARGUMENT TIME AND DIVIDED ARGUMENT
_________________
Pursuant to Rules 21, 28.3, and 28.4 of the Rules of this Court, the United States House
of Representatives (House), a respondent aligned with the petitioners in No. 19-840 (collectively,
California), respectfully moves to enlarge the total time for oral argument and to divide
argument. The House has a unique institutional interest in defending the constitutionality of an
Act of Congress when the Executive Branch argues, as here, that the statute is invalid. In this
instance, the House believes that the Court would benefit from hearing from the House at oral
argument. For this reason, the House asks the Court to extend the total argument time devoted to

1

the parties supporting California to 40 minutes, and to divide that time between California and
the House as follows: 30 minutes for California, and 10 minutes for the House.
The House has conferred with the other parties. California does not oppose the House’s
request to enlarge and divide oral argument, so long as the total argument time allotted to
California remains at 30 minutes. The United States consents to the House’s request to divide
oral argument, but opposes enlargement of argument. Texas and the individual respondents
oppose the House’s request to divide and enlarge argument.
STATEMENT
1.

This case concerns the constitutionality of Section 5000A of the Affordable Care Act

(ACA)—the provision sometimes known as the “individual mandate,” which this Court
construed as a lawful choice and upheld in National Federation of Independent Business v.
Sebelius, 567 U.S. 519 (2012). In 2018, two individuals and a group of States led by Texas filed
this suit, challenging the constitutionality of Section 5000A on the ground that Congress
transformed that provision into an unlawful command to purchase insurance when it reduced the
applicable tax amount to zero in 2017. The Executive Branch declined to defend Section 5000A,
and it has joined the plaintiffs in arguing that the provision is unconstitutional and that the entire
ACA is invalid as a result.
A group of states led by California intervened in the district court as defendants to defend
Section 5000A’s constitutionality. Upon the establishment of the 116th Congress, the House
intervened as a party in the court of appeals to defend the statute.
2. The district court held that Section 5000A is unconstitutional and that the entire ACA
is invalid. The Fifth Circuit affirmed in significant part. The House and California filed separate
petitions for writs of certiorari. See No. 19-841 (House petition); No. 19-840 (California

2

petition). Texas, joined by the two individual plaintiffs, filed a conditional cross-petition,
contending that the Fifth Circuit erred by not affirming the district court’s holding that all of the
ACA is categorically inseverable from Section 5000A. See No. 19-1019. On March 2, 2020,
this Court granted California’s petition (No. 19-840) and Texas’s cross-petition (No. 19-1019).
The House is a party to both cases. It is a respondent aligned with petitioners in No. 19-840 and
a cross-respondent in No. 19-1019.
3. These cases present three questions: (1) whether the individual and state respondents
possess Article III standing to challenge the constitutionality of Section 5000A; (2) whether
Section 5000A, as amended, exceeds Congress’s constitutional authority; and (3) whether, if
Section 5000A is invalid, the provision is severable from the remainder of the ACA.
ARGUMENT
1. The House has a unique and important interest in this litigation. The House has a vital
interest in the validity of the ACA—a historic statute that reshaped the Nation’s healthcare
system and provided health care to millions of Americans, and that has assumed even more
importance in the midst of a pandemic in which numerous individuals have lost their otherwise
applicable health insurance coverage. The House also has an important institutional interest in
the proper application of severability principles, as well as an interest in ensuring that those who
challenge the constitutionality of federal statutes have suffered injuries sufficiently concrete to
confer Article III standing.
Both federal law and this Court’s precedents recognize the important role of the
Legislative Branch in defending the constitutionality of Acts of Congress, particularly when the
Executive Branch does not. The U.S. Code empowers the House to intervene to defend a statute
on the occasions when the Executive Branch has declined to do so. See 28 U.S.C. § 530D(b)(2).

3

That statute reflects the recognition of Congress and the Executive Branch that, because
“declar[ing] an Act of Congress unconstitutional * * * is the gravest and most delicate duty”
that a court “is called on to perform,” Blodgett v. Holden, 275 U.S. 142, 147-48 (1927) (Holmes,
J.), a court should hesitate to do so without the participation of a federal entity defending the Act.
For that reason, this Court has long recognized that Congress may “defend the validity of a
[federal] statute when an agency of government, as a defendant charged with enforcing the
statute, agrees with plaintiffs that the statute is inapplicable or unconstitutional.” INS v. Chadha,
462 U.S. 919, 940 (1983).
2. In view of the House’s unique institutional interests, the House believes that its
participation in oral argument would be of material assistance to the Court. Because the
Executive Branch has attacked the validity of Section 5000A, the House is the only federal party
to this case defending the statute. Federal law specifically recognizes the value of having a
federal party defending the constitutionality of a federal statute. 28 U.S.C. §§ 2403(a), 530D.
The House is best positioned to address the federal interests reflected in the ACA and the severe
disruption to myriad federal programs that would result from striking down the entire statute.
And the House is uniquely positioned to address the questions of Congressional intent implicated
by the severability analysis. Reflecting the strength of the House’s interest in this case, the Fifth
Circuit permitted the House to participate in oral argument below.
3. In recent years, this Court has often permitted oral argument by Chambers or
Members of Congress at oral argument as either a party—as the House is here—or as an amicus.
See, e.g., United States v. Windsor, 570 U.S. 744 (2013); Seila Law LLC v. Consumer Financial
Protection Bureau, No. 19-7 (Feb. 14, 2020); Department of Commerce v. New York, 139 S. Ct.
2551 (2019); United States v. Texas, 136 S. Ct. 2271 (2016); McConnell v. FEC, 540 U.S. 93

4

(2003); United States v. Lovett, 328 U.S. 303 (1946); Jurney v. MacCracken, 294 U.S. 125
(1935). Given that the House is both a party to this litigation and a coequal Branch of
government with vital interests in this litigation, hearing from the House at argument is
especially warranted here.
4. In addition, an enlargement of oral argument time is warranted because of the
significance and number of issues presented in this this case. This case concerns substantial
jurisdictional, constitutional, and remedial questions. The parties have joined issue on whether
any of the state or individual plaintiffs has standing to challenge the constitutionality of the
ACA; whether Section 5000A, properly construed, is constitutional; and if Section 5000A is
invalid, whether it is severable from the remainder of the ACA. Given the number and
substantiality of these issues, one hour of argument time may be insufficient to fully address
them in a way that is most helpful to the Court. In addition, this is a case of overriding national
importance, as the outcome affects the health care of millions of Americans.
This Court has routinely enlarged argument time in similar circumstances. See, e.g.,
Seila Law LLC, No. 19-7 (Feb. 14, 2020); Financial Oversight and Management Board for
Puerto Rico v. Aurelius Investment, LLC, No. 18-1334 (Oct. 15, 2019); Dep’t of Homeland Sec.
v. Regents of the Univ. of Calif., No. 18-587 (Nov. 12, 2019); Dep’t of Commerce, No. 18-966
(Apr. 12, 2019); Michigan v. EPA, No. 14-46 (Mar. 9, 2015). Enlarging argument time to 40
minutes per side is equally appropriate here.
CONCLUSION
For the foregoing reasons, the House respectfully requests that this Court enlarge the oral
argument time for parties supporting California to 40 minutes, with 30 minutes allocated to
California and 10 minutes allocated to the House.

5

Respectfully submitted,

/s/ Douglas N. Letter
Douglas N. Letter
General Counsel
Counsel of Record
Adam A. Grogg
Associate General Counsel
OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
219 Cannon House Office Building
Washington, D.C. 20515
Douglas.Letter@mail.house.gov
Tel: (202) 225-9700

Donald B. Verrilli, Jr.
Elaine J. Goldenberg
Ginger D. Anders
Jonathan S. Meltzer
Rachel G. Miller-Ziegler
Jacobus P. van der Ven
MUNGER, TOLLES & OLSON LLP
1155 F Street, N.W., 7th Floor
Washington, D.C. 20004
Tel: (202) 220-1100
Elizabeth B. Wydra
Brianne J. Gorod
Ashwin P. Phatak
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18th Street N.W.
Washington, D.C. 20036

Counsel for Respondent United States House of Representatives
July 2, 2020

6

